<html>
<title> - [H.A.S.C. No. 111-75]FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR THE U.S. SPECIAL OPERATIONS COMMAND</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-75]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2010

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE HEARING

                                   ON

                      BUDGET REQUEST FOR THE U.S.

                       SPECIAL OPERATIONS COMMAND

                               __________

                              HEARING HELD
                              JUNE 4, 2009

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  U.S. GOVERNMENT PRINTING OFFICE
57-258                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
JIM COOPER, Tennessee                BILL SHUSTER, Pennsylvania
JIM MARSHALL, Georgia                K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              THOMAS J. ROONEY, Florida
PATRICK J. MURPHY, Pennsylvania      MAC THORNBERRY, Texas
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
                 Tim McClees, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant









                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, June 4, 2009, Fiscal Year 2010 National Defense 
  Authorization Act--Budget Request for the U.S. Special 
  Operations Command.............................................     1

Appendix:

Thursday, June 4, 2009...........................................    19
                              ----------                              

                         THURSDAY, JUNE 4, 2009
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
                  THE U.S. SPECIAL OPERATIONS COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Miller, Hon. Jeff, a Representative from Florida, Ranking Member, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     2
Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1

                               WITNESSES

Olson, Adm. Eric T., Commander, United States Special Operations 
  Command........................................................     2

                                APPENDIX

Prepared Statements:

    Miller, Hon. Jeff............................................    24
    Olson, Adm. Eric T...........................................    25
    Smith, Hon. Adam.............................................    23

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
                  THE U.S. SPECIAL OPERATIONS COMMAND

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                            Washington, DC, Thursday, June 4, 2009.
    The subcommittee met, pursuant to call, at 1 p.m., in room 
2212, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. Good afternoon. I think we will go ahead and get 
started. It is right at one o'clock. We certainly expect other 
members to come drifting in as we proceed, but I want to be 
respectful of the Admiral's time and get started on time.
    Welcome, as always, before our subcommittee, Admiral Olson. 
It is always pleasure to see you up here, and certainly we 
appreciate the work you do for our country in leading the 
Special Operations Command (SOCOM).
    I have an opening statement that I have written that I will 
submit for the record.
    Just briefly, I want to say how important the Special 
Operations Command is to our Nation's national security and how 
much we really appreciate and respect the job that you and all 
of the people under you have done in protecting our national 
security all over the world in many, many places, some of which 
are well-known, like Iraq and Afghanistan, others of which many 
people are not aware of, but in many ways are just as 
important, certainly, for the future of the broader conflict 
against violent extremists. And I think that the holistic 
approach that the Special Operations Command has brought to 
winning that fight is invaluable.
    Without question, you are the best in the world at finding 
and disrupting terrorist networks, at targeting individual 
terrorists and either capturing or killing them; and that 
skill, regrettably, will continue to have an important role in 
our national security.
    But you also understand how important it is to win the 
broader ideological war, to work with our partners out there in 
other countries in the world to get them to take the lead in 
countering insurgencies, to give them the training and help 
they need. Of course, nowhere is that truer or more in need 
right now than in Pakistan, and that training will be an 
important part of the success there as well. And also just the 
broader message issues: How do we communicate; how do we do 
counter radicalization?
    Both your command, and I think as impressively, the 
individual soldiers, marines, airmen, Navy SEALs out there, 
have developed skills in those areas that are invaluable not 
just to the Special Operations Command, but have proven to be 
valuable to the broader Department of Defense and Intel 
Communities, in truly understanding what we are up against, how 
to confront it, and also how to build on alliances that are out 
there.
    What has been learned out there on the battlefield has 
really been very helpful in terms of preparing on all of those 
issues. We know Special Operations Command takes a strong 
leadership role.
    Our subcommittee is very interested in being supportive and 
being helpful. We know there are inevitable battles over funds, 
but you always seem to do a very, very good job with what we 
provide. And I do believe the Congress has also recognized the 
importance of this role and has done our best to provide what 
you need to fight that fight.
    So we appreciate what you are doing and look forward to 
hearing your testimony.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 23.]
    Mr. Smith. With that, I will turn it over to the Ranking 
Member, Mr. Miller, for any opening statement he might have.

 STATEMENT OF HON. JEFF MILLER, A REPRESENTATIVE FROM FLORIDA, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Miller. Thank you very much, Mr. Chairman. I also have 
a statement I would like submitted for the record.
    I would like to say welcome, Admiral, I hope your travels 
up were good. Thank you for the hospitality. I had a wonderful 
chance to visit with you and Marilyn, Monday evening, and we 
thank you so much for hosting us and look forward to your 
testimony today.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 24.]
    Mr. Smith. Thank you.
    With that, Admiral Olson.

   STATEMENT OF ADM. ERIC T. OLSON, COMMANDER, UNITED STATES 
                   SPECIAL OPERATIONS COMMAND

    Admiral Olson. Well, thank you, sir. Good afternoon, 
Chairman Smith, Congressman Miller. Thank you very much for the 
opportunity to appear before this committee to highlight the 
current posture of the United States Special Operations 
Command. I will say that thanks to the foresight, advocacy and 
strong support of this body--and we recognize that we were a 
product of the Congress--we do remain well positioned to meet 
the Nation's expectations of its Joint Special Operations 
Forces.
    Primarily, as you well know, U.S. Special Operations 
Command is responsible through its service component commands, 
the U.S. Army Special Operations Command (USASOC), the Air 
Force Special Operations Command (AFSOC), the Marine Corps 
Special Operations Command (MARSOC) and Naval Special Warfare 
Command (NAVSPECWAR), for organizing, equipping, training and 
providing fully capable Special Operations Forces (SOF) to 
serve under the operational control of geographic combatant 
commanders around the world.
    In this role, the United States Special Operations Command 
headquarters shares many of the responsibilities, authorities 
and characteristics of a military department or a defense 
agency, including a separate major force program budget 
established by the Congress for the purpose of funding 
equipment, materiel, supplies, services, training and 
operational activities that are peculiar to Special Operations 
Forces.
    The United States Special Operations Command has also been 
designated as the combatant command responsible for 
synchronizing Department of Defense planning against terrorists 
and terror networks globally, a function that requires robust 
daily activity, punctuated semiannually by a conference that 
now attracts over 1,000 people from about 40 different agencies 
and organizations.
    Additionally, we have been assigned proponency by the 
Department of Defense for security force assistance. In this 
role, we expect to foster the long-term partnerships that will 
shape a more secure global environment in the face of global 
challenges such as transnational crime, extremism, and 
migration.
    The Joint Special Operations Force itself, those assigned 
to the United States Special Operations Command by the military 
services for most of their military careers, comprises Army 
Special Forces, Rangers, Navy SEALs, combatant craft crewmen 
and mini submarine operators, Marine special operators, fixed- 
and rotary-wing aviators from the Army and the Air Force, 
combat controllers, pararescue jumpers, practitioners of civil-
military affairs and military information support; all of 
these, and more, augmented, supported, and enabled by a wide 
variety of assigned logisticians, administrative specialists, 
sensor operators, intelligence analysts, acquisition 
professionals, operations planners, strategists, communications 
experts, budget managers, doctrine writers, trainers, 
instructors, scientists, technologists and many more, who are 
great men and women, Active Duty and Reservists, military and 
civilian, who generally work within the Special Operations 
community for an assignment or two.
    This is truly a team of teams. It is a force that is well 
suited to the irregular operating environments in which we are 
now engaged, as you mentioned in your opening statement, sir, 
and its proven abilities have created an unprecedented demand 
for its effect in remote, uncertain and challenging operating 
areas. Whether the assigned mission is to train, advise, fight 
or provide humanitarian assistance, the broad capabilities of 
Special Operations Forces make them the force of choice.
    And while the high long-term demand for Special Operations 
Forces in Afghanistan and Iraq have led to 86 percent of the 
overseas force currently being deployed to the United States 
Central Command area of responsibility, Special Operations 
Forces do maintain a global presence.
    In fiscal year 2009, Special Operations Forces have already 
conducted operations and training in 106 countries around the 
globe. Throughout these operations, Special Operations Forces 
have taken a long-term approach to engagement designed to forge 
enduring partnerships contributing to regional stability. This 
balance of effective direct and indirect actions, the 
combination of high-end tactical skills and an understanding of 
the operational context of their application is the core of 
Special Operations. From support to major combat operations to 
the conduct of irregular warfare, Special Operations Forces are 
normally the first in and last out, accomplishing their 
missions with a very small, highly capable, and agile force.
    Given our current environment, it is important to note that 
the traditional activities of irregular warfare are not new to 
Special Operations Forces. Unconventional warfare, 
counterterrorism, civil affairs operations, information 
operations, psychological operations, foreign internal defense, 
are longstanding Special Operations Forces core activities. As 
a result, significant resources are required to ensure that 
Special Operations Forces are properly manned, trained and 
equipped to operate globally and with unmatched speed, 
precision, and discipline.
    The United States Special Operations Command fiscal year 
2010 budget request includes the resources necessary to 
continue providing full spectrum, multi-mission global Special 
Operations Forces that will equip the United States with a 
comprehensive set of unique capabilities.
    While the United States Special Operations Command's major 
force program (MPF) 11 budget has historically been robust 
enough to meet the peculiar Special Operations mission 
requirements, the success of Special Operations Forces depends 
not only on SOCOM's dedicated budget and acquisition 
authorities, but also on Special Operations Command's service, 
parents and partners. Special Operations Forces rely on the 
services for a broad range of support.
    Some of the enabling capabilities that must be provided by 
the services include mobility, aerial sensors, field medical 
capabilities, remote logistics, engineering, planning, 
construction, intelligence, communications, security and more. 
And with the combination of the United States Special 
Operations Command budget and the support from the services, 
Special Operations Command seeks a balance, first, to have a 
sufficient organic Special Operations peculiar force for speed 
of response to operational crises; and, second, to have 
enabling capabilities assigned in direct support of Special 
Operations Forces for sustainment and expansion of operations.
    The United States Special Operations Command headquarters 
will continue to lead, develop and sustain the world's most 
precise and lethal counterterrorism force. We will provide the 
world's most effective Special Operations trainers, advisers 
and combat partners, with the skills, leadership and mind-set 
necessary to meet today's and tomorrow's unconventional 
challenges.
    This Nation's Joint Special Operations Forces will continue 
to find, kill or capture our irreconcilable enemies; to train, 
mentor and partner with our global friends and allies; and to 
pursue the tactics, techniques, procedures and technologies 
that will keep us ahead of dynamic emerging threats.
    I thank you again for the opportunity to appear before you 
today. I will conclude my opening remarks with a simple 
statement of pride in the Special Operations Force that I am 
honored to command. Special Operations Forces are contributing 
globally well beyond what its percentage of the total force 
would indicate. Every day, they are fighting our enemies, 
training our partners, and, through personal contact and 
assistance, bringing real value to tens of thousands of 
villagers who are still deciding their allegiances.
    I stand ready for your questions, sir.
    [The prepared statement of Admiral Olson can be found in 
the Appendix on page 25.]
    Mr. Smith. Thank you very much. I have several questions. 
We will adhere to the five-minute rule, just to keep structure 
to the questioning.
    The first question I have is about 1208 authority, which I 
know has been a critical tool for what you have been able to do 
in a number of different places. You are asking for an 
expansion of a little bit of the money. I think it is $35 
million now. You are asking for $50 million.
    Can you tell us how those funds are used and why they are 
so important to what you are doing?
    Admiral Olson. Yes, sir. The 1208 authority is peculiar to 
Special Operations. It requires that the funds be used to 
support ongoing Special Operations. This is really enabling the 
Special Operations Forces to extend their operations through 
the use of surrogates and counterparts to conduct activities in 
partnership or in support of the Special Operations Forces who 
are on that operation.
    It is an authority, not an appropriation. It authorizes the 
United States Special Operations Command to recommend to the 
Secretary of Defense, after coordinating with the geographic 
combatant commander and the chief of mission in the country, to 
utilize up to currently $35 million of Operation and Management 
(O&M) funds from within the Special Operations budget. So it is 
an issue of prioritization within our budget.
    It is enormously important because it is an agile fund. It 
is a focused fund. It is used for purposes that are well-
coordinated. And in a closed session I could provide a fair bit 
of detail about how it has had effect around the world.
    Mr. Smith. Certainly. I think it is a program that we 
strongly support. And I think it essentially contributes to 
sort of the second area of questioning, and that is the 
importance of interagency cooperation in what you are doing, 
which is increasingly important.
    When we look at this broadly, globally, as a 
counterinsurgency fight, there are a lot of different pieces 
that are going to have to be pulled together in order to make 
this work. I think from what I have seen of Special Operations 
Command under your leadership, and also out in the field under 
the leadership at one point of General McChrystal, I think 
pulled those pieces together about as effectively as anywhere I 
have seen in government.
    As we go forward and you look outside of areas like Iraq 
and Afghanistan, where I think we are specifically familiar 
with the struggles there, but you look at some of these 
emerging threat environments around the Horn of Africa and 
Yemen and Al Qaeda in the Islamic Maghreb (AQIM) and the 
Maghreb, what do you think is most important towards pushing 
forward that level of cooperation between SOCOM, other elements 
of DOD, State and the Intel Community?
    Admiral Olson. The most important thing to push forward are 
structures that provide a forum so that the interagency 
community can provide the content to the discussions. These are 
relationships that are building over time. We are way better 
than we have ever been. We are not as good as we will be next 
year or the year after.
    But so much of it has to do with just understanding each 
others' organizations and cultures. And we are even seeing now 
what I call second or third generation, or second or third 
order effects of people who have worked together in one place, 
coming together in another place, and already having a 
relationship so that they can move much more quickly together.
    General McChrystal, I think, set the standard aggressively 
at the operational level. I think the United States Special 
Operations Command is serving as a model of sorts at the higher 
headquarters level. We wake up every day with about 85 
uniformed members of the Special Operations Command going to 
work in other agencies of government inside the National 
Capital Region; most of the agencies that you would expect, and 
perhaps some you wouldn't normally expect us to be in, in small 
teams, typically two to four people with an 06 colonel or Navy 
captain as the team leader.
    We also wake up every day at our headquarters at McDill Air 
Force Base in Tampa with about 140 members of other agencies 
coming to work in our headquarters. Full members of the team, 
sitting in on all the discussions, sitting in on all the global 
collaboration kinds of briefings, and this has provided a 
transparency in the interagency environment that is very 
helpful.
    It is hard now, having seen it in action for a few years, 
to imagine, to remember back what it was like before we--back 
when we used to look around the room and see only uniformed 
members. It really is a good, solid team effort at this point.
    Mr. Smith. That is something we really want to encourage. I 
think you hit upon the absolute key to it, is getting people 
from the different agencies to actually work together side by 
side, day in and day out with each other, in different forums. 
You have done an excellent job, as you mentioned, in sprinkling 
some SOCOM people out in other places. Other agencies need to 
do that as well. I think the National Counterterrorism Center 
(NCTC) is a good forum for that. But we want to see that happen 
more and more and look for ways to encourage it.
    I think in particular some of the Title 10, Title 50 
conflicts between Intel and DOD can be resolved better if we 
start having more sharing back and forth. Now, obviously, we 
understand all of those different pieces have personnel to 
manage. That is the great challenge, I know, for you. And if 
your personnel is sent all over a bunch of different other 
places, you have a core mission to accomplish.
    So if along the way, if there are ways we can help you free 
up more personnel, please let us know. I know you have got an 
ongoing issue in terms of just the management just within your 
own entity of different service members, and we are 
communicating that concern to DOD and trying to give you the 
authority you need to better manage your own personnel within 
SOCOM.
    Certainly we look for those opportunities also to build 
those relationships and really just sort of continue on with 
the Goldwater-Nichols principle and now apply it across agency 
lines as well as within the DOD. We look forward to that.
    With that, I will yield to Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    I serve on the NATO Parliamentary Assembly and I have had 
an opportunity to visit with some of our NATO allies, and they 
are indeed proud of the contributions they are making, 
certainly within the SOF community and certainly in 
Afghanistan.
    What I would like to ask you for the record, if you would, 
explain the impact of the SOF capabilities of those partners in 
the current fight as it exists in Afghanistan, and, if you 
could, an update as well on Iraq as we transition out.
    Admiral Olson. Yes, sir. From your visits to the NATO SOF 
Coordinations Center, you understand how this team is coming 
together and the bonding that is occurring across the Special 
Operations Forces of NATO at the headquarters environment. I 
think it is inspired. It certainly stimulated the activities of 
some Special Operations Forces being provided to the 
International Security Assistance Force (ISAF) effort in 
Afghanistan.
    So I am not the expert on how individual nations' Special 
Operations Forces are performing, what their activities are in 
Afghanistan. That is outside my realm of responsibility, and I 
am not sure my monitorship is strong enough to give a coherent 
and an accurate answer on that at this point.
    I will say in my discussions with NATO's SOF leaders, there 
is a sense of community that is forming across the Nation's 
Special Operations communities. I would term it, loosely 
perhaps, special operations forces, the special operations flag 
is something around which NATO forces can rally. It is a 
relatively inexpensive, relatively low-level investment in a 
much broader military capability that NATO can provide.
    The NATO-SOF Coordination Center now, as you know, is less 
than three years old, but it has got its legs up under it 
pretty well.
    Mr. Miller. What do you think we can do to assist our 
allies as they develop their SOF units?
    Admiral Olson. Sir, there is already robust activity in 
NATO, and we are seeing some NATO countries step forward in 
terms of presenting their Special Operation Forces as subject 
matter experts in particular disciplines and then using that to 
attract others to exercise and train with them. So there is a 
synergy that is occurring bilaterally in areas where the United 
States isn't involved, and multilaterally and bilaterally where 
we are.
    I think that my shortest answer to that would be to explore 
ways to operationalize the NATO SOF Coordination Center, and I 
am not knowledgeable enough about how NATO works 
organizationally to understand the details and nuances of that.
    The NATO SOF Coordination Center director is now a dual-
hatted American two-star general who serves in his primary role 
as the commander of Special Operations Command/European 
Command, so I would suggest exploring ways by which we might 
form a separate director for the NATO SOF Coordination Center.
    Mr. Miller. One question, moving away from NATO, involves 
where we are with our gunships. Certainly with AFSOC in my 
district, it appears that there is a shortfall. But the budget 
doesn't request any additional funding for gunships this year.
    Can you talk about our plans, or your plans, to address 
that particular shortfall, along with your plans to maintain, 
modernize and upgrade the existing aircraft that are out there?
    Admiral Olson. Yes, sir. We have a recapitalization program 
for most of the rest of our C-130 fleet, 37 MC-130Js will come 
into our program. That was a higher priority initially than the 
AC-130 gunship for recapitalization because of the ages of the 
airframes involved.
    The recent level of activity in Afghanistan is causing us 
to understand again how important precision firepower is in 
that tactical environment, and we are understanding clearly 
that our capacity is insufficient and that other platforms, 
substitute platforms, simply don't bring the same response to 
troops in contact that an AC-130 does.
    The AC-130 is not a precision-fire platform. It is actually 
an area-fire weapon that is extremely accurate with its sensors 
and guns. So what we are doing to augment the AC-130 fleet, 
what we are seeking to do immediately is modify our MC-130W 
fleet to serve as a platform for a standoff precision-guided 
munition as a primary weapon and a 30-millimeter gun as a 
secondary weapon. All proven systems. It is simply a matter of 
integrating them in a platform that hasn't been used for that 
purpose before.
    We are seeking funds to do this, and we think that because 
the technology risk is so low, that we can deliver it very 
quickly.
    Mr. Miller. That is all for now, Mr. Chairman.
    Mr. Smith. Mr. McIntyre is recognized for five minutes.
    Mr. McIntyre. Thank you for being with us, Admiral, and 
thank you again for your hospitality last year when I was able 
to join you down in Tampa. And thank you for the service you 
give to us here at home and around the world.
    The concern about wear and tear on equipment I know is one 
we have had, especially since the situation occurred in Iraq. 
Tell me, with regard specifically to the Special Operations 
Forces equipment and resources, what resources are you finding 
under your command that are experiencing the greatest wear and 
tear, and to what exactly do you attribute this extraordinary 
aging process, and do you have some thoughts you can share with 
us about how we might can best help you address that situation?
    Admiral Olson. Yes, sir. Thank you. I don't think it will 
surprise anybody; the answer is that it is our mobility systems 
that are suffering the most wear and tear because of the ways 
they are used and the pace that they are used. So I asked my 
staff just recently to give me the top five items in terms of 
what we are seeing in wear and tear, and it is exactly what you 
would think. It is our fixed-wing and rotary-wing aviation, it 
is our ground mobility fleet, and in one case it is a maritime 
platform.
    We are simply flying more hours, we are driving more miles, 
we are spending more time on the water, and this is just at a 
pace beyond what we had predicted when those systems were 
procured. So we are refurbishing them more often, and we have 
been resourced adequately to do that.
    My concern, looking ahead, is simply that we sustain the 
level of resources that will permit us to keep this equipment 
going. As we look forward to some forces perhaps drawing down, 
in Iraq especially, we don't see that happening for Special 
Operations Forces at all. So as we have come to depend on some 
special funding means to keep this equipment going in the 
operational environment, we are going to have to find a way to 
work that into our baseline budget in order to sustain this 
equipment over time.
    Mr. Smith. Sorry to interrupt you. Just on that point, as 
we are drawing down our conventional forces, I know there are 
some challenges in terms of your staying there in the same 
numbers, in terms of making sure you continue to get the 
support equipment that you need. A lot of that you get from the 
conventional forces in the field.
    How is that playing out? Are you satisfied that those 
concerns are being met, or is there more that needs to be done?
    Admiral Olson. Sir, I think it is playing out well. 
Recently we have had service chief-level talks with the 
Commandant of the Marine Corps and the Chief of Staff of the 
Army. We are in complete accord about what the challenges are 
and seeking ways together to resolve those.
    I think there is a broad understanding that whether it is a 
small force in an area or a large force in an area, you still 
need somebody to control the airspace, operate the airfields, 
provide the quick reaction force, provide the medical support 
to do all the rest of it that it takes to look after the force 
that is forward.
    So we are helping them help us by doing the detailed 
analysis of exactly what it is we think will have to be left 
behind, if you will, by the forces that draw down in order to 
sustain the activity that stays behind. So I think we are on a 
good track with that in our conversations with the services.
    Mr. Smith. Thanks. I apologize, Mike.
    Mr. McIntyre. Can you tell us what the typical rotational 
cycles are of SOF personnel, particularly in the U.S. Central 
Command (CENTCOM), and how that may be affecting what you best 
feel like you can do with regard to keeping up with such a pace 
in terms of the rotation to personnel? I know that is an issue 
that has come up in the broader context with our military, but 
I specifically want to be concerned about how that is affecting 
you with Special Operations Forces.
    Admiral Olson. Yes, sir. The service components have sort 
of evolved into different rotational paces, depending on the 
nature of the force, the type of equipment they use, the nature 
of the operations they are conducting. So it ranges from about 
90 days on the short end for some of our aviators who fly an 
awful lot of hours at night, on night vision goggles, and who 
burn up their allotted flying hours more quickly and therefore 
need to come back and sort of reset, through about seven months 
for our Special Forces operational detachment A teams, the 
Green Berets, who are at battalion-level rotations at that 
pace. And then it extends beyond that to one-year rotations for 
many of the people assigned to the higher headquarters in order 
to provide a campaign planning continuity to the effort at the 
more senior levels.
    The rate now is sustainable. Our predictions about how long 
we could sustain it were wrong. We didn't think that we could 
sustain it at this pace this long, but the force is proving 
resilient beyond our estimates.
    I think personally that we are at about the maximum rate 
that we can sustain, but I think that we can sustain this rate 
for some time longer. It has now become the new normal. It is 
the way we operate. People who are doing this have been doing 
it long enough to know that this is what it is they can expect 
to do, and our retention rate remains high and our recruiting 
remains healthy.
    So if the demand didn't increase, we are probably pretty 
okay. But what we see is an increasing demand for Special 
Operations forces, so we have got a growth plan in place to 
accommodate that.
    Mr. McIntyre. Thank you. It is good to have you here.
    Thank you, Mr. Chairman.
    Mr. Smith. Mr. Ellsworth is recognized for five minutes.
    Mr. Ellsworth. Thank you, Mr. Chairman.
    Thank you, Admiral. I apologize for being late. I had some 
Hoosiers in the office that didn't want to let me go.
    If this question has been discussed, let me know and I will 
move on to something else. Can you talk, Admiral, about some of 
the interoperability between the agencies? If things are being 
done in the most efficient manner between the interagency 
cooperation, some of the challenges you might have faced, what 
is the best practice and what are our successes and what 
challenges are you facing in the meld there?
    Admiral Olson. Yes, sir, we did address that to some level, 
and what I said, very quickly, is it is better than it has ever 
been. It will get better. We are now at the point where the 
structures have evolved to provide the venues for these kinds 
of interactions to occur. Now it is a matter of the people 
getting the knowledge of each others' organizations and 
traditions and, frankly, languages in order to optimize the 
efficiency of it. The trend is certainly one in the right 
direction. We are way ahead of where we thought we might be 
just a couple of years ago.
    Mr. Ellsworth. If you would--this is totally unrelated but 
an area of particular interest to me--discuss what you can 
about our attempts and our movement in the non-lethal field, 
where we are at on that, whether vehicle stops or personnel 
stops. I know that is not what normally would be discussed in 
Special Ops, but certainly it would be a valuable part in 
winning hearts and minds, if you wouldn't mind telling me where 
we are at and what we need.
    Admiral Olson. Sir, we are all in favor of every applicable 
non-lethal technology. We understand as well as anybody, I 
think, that killing people is not the way to success in either 
Iraq, Afghanistan or anywhere else that we work, and that a 
non-lethal effect that can then give you time to sort out the 
situation, sort the people, would be a great advantage on the 
battlefield.
    Special Operations is in favor of any feasible appropriate 
technology. Our position, though, is that those technologies 
have a much broader application than Special Operations Forces. 
So we are advocates of it, we are champions for it, we are 
supporters and cheerleaders for it, but we have very few of 
those programs initiated within the Special Operations budget 
itself.
    Mr. Ellsworth. I have seen some of the things. I am 
embarrassed to say, being in Congress and on Armed Services, 
that I am watching the Discovery Channel and seeing some of the 
new technology about the heat-projecting apparatus. I don't 
even know what you call it, but it is very interesting. Is that 
on the edge of being used?
    Mr. Smith. My staff is telling me it is called the active 
denial system.
    Mr. Ellsworth. That is a great name for that. I couldn't 
have named it better myself. Is that in the prototype stage? Is 
it being used?
    Admiral Olson. I saw that demonstrated, but it has been a 
couple years ago, and I don't know what has happened since 
then.
    Mr. Ellsworth. Thank you. I yield back.
    Mr. Smith. A couple areas I want to ask about, and we will 
go back through the members as well.
    Piracy has been emerging as a threat and a challenge. I 
guess--congratulations, I guess, is the word on running a very, 
very good operation in rescuing the Maersk crew here about a 
month or so ago.
    We had an opportunity to get briefed by Captain Moore and a 
couple others who had participated in that operation--a very 
impressive accomplishment--but all those years ago you were 
trained to do that. Basically you were set up so that if there 
was a hostage situation anywhere in the world, you would 
respond very, very quickly.
    You have been doing a lot of other things in between. But 
it is impressive to see that training paid off and we knew what 
to do.
    Going forward in terms of how we confront piracy, certainly 
it is a challenge in that part of the world, off the coast of 
Somalia, and has huge implications that we need to try and 
confront. As at the same time, as we have mentioned in this 
hearing, you have a wealth of other opportunities that are also 
important in Afghanistan and Pakistan and a variety of other 
places. And one of my concerns is with the media attention on 
piracy coming up, if we shift too much of our focus in that 
direction we distract from these other very important missions 
as well.
    I just wonder if you could comment on how you see SOCOM's 
role in combating piracy in that part of the world and how it 
may distract from some of the other missions?
    Admiral Olson. Yes, sir. Obviously, across the military 
there is robust capability to take on piracy in different ways, 
and Special Operations contributes some of the capability to 
that, as was evidenced here a couple of months ago.
    How that force is used is a matter of policy. It is my 
responsibility to train the force to do what it is asked to do. 
We do keep some elements of our force on standby, on alert, to 
respond to that kind of situation. So that if they are 
infrequent, then I think we would consider it not to be much of 
a burden on the force.
    Mr. Smith. That has always been the case. Even with 
everything that has gone in the last eight years, it has always 
been the case you have had that standby force.
    Admiral Olson. Yes, sir.
    Mr. Smith. I am sorry, I didn't mean to interrupt.
    Admiral Olson. Again, it is more of a policy issue. But the 
question is really are we going to prevent piracy or are we 
going to respond to piracy with a military force? Today, we 
have been more in the business, with my force, of providing 
those who respond to it, and we are able to continue with that 
mission without impacting on our others.
    Mr. Smith. Mr. Miller.
    Mr. Miller. I will pass.
    Mr. Smith. I have got more questions. Mr. McIntyre, do you 
have anything you want to add?
    Mr. McIntyre. I just want to ask you if you feel like the 
partnership with NATO and their Special Operations capability 
is working well?
    Admiral Olson. Sir, we did address that briefly earlier, 
but the NATO Special Operations Coordination Center, the NSCC, 
headquartered in Mons, is an up-and-running organization. It is 
not fully manned, it is not fully capable yet, but the 
relationships that have occurred within that organization have 
developed quite strong bonds among the NATO Special Operations 
Forces.
    I was able to attend their first annual conference last 
year. Twenty-eight countries, I believe, came to that 
conference; and it was remarkable how similar the conversation 
was, the vision is across the Special Operations Forces of 
NATO, some of which say they feel that they have more in common 
with the Special Operations Forces of other nations than they 
do with other forces of their own nation because of the way 
that they train and exercise together.
    I think that there is an opportunity to take that to the 
next step. I am just not certain what the next step is. What I 
mentioned before is we might explore a way to operationalize 
the NATO SOF Coordination Center in some way and provide it an 
independent director, who is now a dual-hatted officer.
    Mr. Smith. Following up on that, a trip I took in January 
with some Members, on the way back from Iraq we stopped in Mons 
and had the opportunity to visit Special Operations Forces in 
NATO Command, and I just can't tell you how impressed we were 
by the degree of coordination. And without getting into too 
many detailed aspersions here, we did not find similar 
coordination in other parts of NATO that we met with.
    Certainly that is a major, major challenge in Afghanistan, 
is figuring out how to get all of our partner nations--it would 
be far too ambitious to stay on the same page, but at least in 
the same book, when it comes to how we are going to confront 
Afghanistan and Pakistan.
    NATO is set up the way it is set up. It is an important 
alliance. It is very difficult to manage that many different 
countries coming from that many different perspectives, so I 
certainly have a fair amount of respect for the difficulty the 
organization faces.
    But we went through all of these meetings on that with 
increasing frustration. Actually at the last meeting, which 
regrettably we didn't have as much time as I would have liked 
for, was to visit the SOF force, and it was inspirational, 
because we saw that it can work. You can in fact bring that 
many different nations together to coordinate in a way that is 
effective.
    I guess my plea would be that the SOF forces over there try 
to spread that message out more broadly among the other aspects 
of NATO. I think it would be very, very critical.
    A couple of things I wanted to ask you about----
    Admiral Olson. Sir, if I could make one additional point, I 
didn't mean to attribute more countries to NATO or more to this 
conference. What we are seeing, actually, is an extension of 
Special Operations cooperation beyond NATO, and those who 
participate in other operations where they may work with a 
NATO-SOF country are now becoming part of this team.
    So this first annual conference we came to last year was 
actually attended by some non-NATO countries because they 
choose to develop those relationships. It is really encouraging 
to see this play out.
    Mr. Smith. It is invaluable, the mantra of 
counterinsurgency--by, through, and with--you want to work with 
the host nations, and many of them are now participating in 
this and learning the necessary skills and how to implement 
that policy.
    I want to ask a little bit about some of the contracting 
issues. It is something we have dealt with. What we have always 
tried to do on this committee is find ways to enable SOCOM to 
have a slightly more nimble approach to acquisition. The normal 
processes are difficult when you are operating at such speed 
and with so much technology that is rapidly changing. If you go 
through a normal 18-month acquisition process, by the time you 
acquire the product it is out of date. So we have tried to 
speed it up in a couple of different areas. I am curious how 
you think that is going in general. I also wanted to give you 
an opportunity to respond.
    I know The Washington Post had written an article recently, 
critical of some of that contracting, that it hadn't followed 
the process in some instances. I have a very strong bias that 
drowning the DOD in process is one of the things that is 
inhibiting our ability to move forward. But that is not to say 
we don't need to have some transparent process so that we make 
sure it is all on the up-and-up and done in the best interests 
of the taxpayers.
    I just want to give you an opportunity to comment on a 
couple of those issues and where you see it headed.
    Admiral Olson. Yes, sir. I certainly agree with you and I 
am encouraged by all that Secretary of Defense Gates has said 
about relooking at how acquisition is done Department-wide, 
with an eye towards cost reduction and streamlining the 
acquisition processes.
    Within the Special Operations Command, as you said, we are 
intended by Congress, I believe, to be more agile than the 
services can be with their large acquisition programs using our 
MFP-11 budget for the Special Operations' peculiar acquisition 
procurement actions that we take.
    I focused on this a couple of years ago in investigating 
our own house. I realized that many of the barnacles that have 
grown on our process were barnacles that we let grow. As I 
termed it within our own headquarters, I thought we were 
operating comfortably, sort of in the middle of our 
authorizations, and certainly not pushing the edge of it.
    So we have several initiatives within our own headquarters 
to provide more agility internally along the way. We have 
sought and been granted relief from participation in some of 
the servicewide joint acquisition processes which had been 
applied, probably improperly, to the Special Operations 
programs. The Vice Chairman of the Joint Chiefs, who runs some 
of this process, he has relieved us of those where the 
acquisition program is a Special Operations' peculiar program.
    We do operate under all the same laws and policies and 
reporting requirements. We have got a ways to go in terms of 
continuing to scrape the barnacles off, but I think we are 
making progress in that regard, and we will certainly continue 
to report to you how that is going. But I am encouraged by what 
we have seen here just in the last few months.
    With respect to the DOD Inspector General (IG) report, that 
was not an acquisition contracting issue; that was a contract 
that we let with a single provider of many services to the 
Special Operations community. They modify equipment, they 
maintain equipment, they repair equipment and refurbish it, 
they store equipment for us. They do build sort of small ``one 
of'' items for us, they design and build those. It is a 
comprehensive set of activities that they perform for us, and 
the DOD IG look into that--which we appreciate--highlighted 
three findings, two of which we concurred mostly with and have 
taken several internal actions to resolve working with IG and I 
think to their satisfaction.
    The third one actually had to do with a potential 
Antideficiency Act (ADA) violation, which it was our 
responsibility to conduct a preliminary review of. We did that. 
Our preliminary review identified that the finding had some 
merit. There is the potential of an ADA violation, and so this 
week my comptroller has initiated a formal investigation into 
that finding, which is our responsibility to do.
    We have nine months to report the results of that 
investigation. We have 90 days to respond formally to the 
release of the final IG report.
    Mr. Smith. I have one more question. I want to see if any 
of my colleagues have anything else.
    Just focusing for a moment, as long as we have you here, it 
would be interesting, your take on Afghanistan and Pakistan and 
the various situations there. In particular, two areas. In 
both--and this is something General McChrystal highlighted in 
his comments yesterday and the day before yesterday in front of 
the Senate, talking about the balance between confronting the 
enemy and being able to track down the terrorists that threaten 
us, and, at the same time, protecting against civilian 
casualties and taking a more classic counterinsurgency 
approach.
    And I agree with General McChrystal that we need the Afghan 
people on our side, and right now the two greatest threats to 
them being on our side are, number one, the civilian casualty 
issue, both real and, in some cases, I think generated by 
Taliban propaganda. But we need to get better at countering 
that propaganda, getting our own message out. But also it is a 
very, very real concern.
    Then, of course, the other issue is the efficacy of the 
Afghan government, which the people of Afghanistan do not 
believe in. And I think certainly the best approach there is to 
try to go local as much as possible. The Afghan people are far 
more likely to trust their local tribes and work with their 
provisional governments than they are to buy off on whatever 
the national government winds up looking like, not to say we 
shouldn't try to make the national government a little bit 
better as well. But in balancing that with an Afghanistan going 
forward, how do you see the best approach to striking that 
balance?
    The second question, with regard to Pakistan, this issue 
affects Pakistan as well. In fact, David Kilcullen testified 
before our committee a while back and had a pretty good summary 
of that, saying the drone strikes in the Federally Administered 
Tribal Areas (FATA) are actually fairly well thought of in the 
FATA because the people who live there have been dealing with 
these violent psychopaths who have been running their 
communities.
    It is in Pakistan itself and in Afghanistan where the 
civilian population sees this as a threat to their sovereignty 
and therefore is less likely to be supportive of us.
    But also, specifically, Pakistan needs to learn 
counterinsurgency. And I won't go through the litany of 
challenges there, you know them well. But we need to be able to 
help them, while at the same time we have a limited role to 
play. Their sovereignty is very important. It is incredibly 
important in getting support for their government that we not 
have too heavy a hand there.
    So I guess my two questions at the end of all that are: 
What can we do to better help Pakistan get to the 
counterinsurgency level that they need to get at, because as 
successful as they have been in Swat and other regions 
recently, it has been a pretty heavy-handed conventional 
approach that has created 2 to 3 million refugees even as it 
has driven back the Taliban, number one.
    And, number two, how do you see us striking the balance in 
Afghanistan between fighting the people we need to fight and 
stopping the number of civilian casualties?
    Admiral Olson. Well, sir, I think you just said it better 
than I could, and I certainly support everything that General 
McChrystal said in his confirmation hearing a couple of days 
ago.
    If I could go to Pakistan first, I think that we can't help 
Pakistan more than they want to be helped. And one of the 
filters on sort of their willingness to be helped is how the 
Pakistan military is perceived within Pakistan. It is the 
strongest element of Pakistan historically. It is the element 
of government upon which the people depend. And I think that we 
have to be very careful in recognizing that we cannot take 
actions that would cause the Pakistan military to appear to the 
Pakistani people to be an extension of ours. We can only help 
them in a way that truly helps them, and they are much more 
expert in that than we are.
    So I think the best thing that we can do is develop the 
relationships that will erode whatever atmosphere of distrust 
exists, help the Pakistani people understand that our interests 
there are theirs, and that our commitment is a long-term 
commitment for the good of Pakistan and the stability of the 
region. But it will require us to work very carefully and very 
wisely with the Pakistan Government and with the Pakistan 
military and the Frontier Corps.
    Regarding Afghanistan, I would highlight that Afghanistan 
is a uniquely complex environment. Counterinsurgency in 
Afghanistan is very different than it has been anywhere else 
where we have operated. It is really a village-by-village, 
valley-by-valley counterinsurgency.
    One of the things I have found myself saying more often is, 
presence without value is perceived as occupation; and in 
Afghanistan, in particular, occupation is resisted. It is 
simply their culture to resist outsiders, and they pride 
themselves on a long history of resisting outside influence.
    Much of Afghanistan has not felt the presence, the impact 
of a central government in Kabul ever. And, as you said, I 
think a large part of our goal there is to encourage the people 
who are now deciding where their allegiance will be. It is 
causing them to decide to place their bet with a legitimate 
government, at whatever level that is. Whether it is a 
legitimate tribal, local, regional or Federal Government, it 
will come down to ultimately where they place their bet. And I 
think in absence of solid metrics, it will be our sense of 
where the people are beginning to place their bets that will 
lead us to understand whether or not our efforts are successful 
in the hinterlands of Afghanistan.
    That will require a careful approach. It will require as 
small a footprint as we can get away with in the places we go, 
with the capability and the security considerations as part of 
that. It will require, I believe, more of a shift towards true 
local regional knowledge, however that is obtained.
    We have to get beyond generalizations in Afghanistan, into 
true deep knowledge of tribal relationships, family histories, 
the nuances of the terrain and the weather, and how that 
affects how business is done, how money is made, how their 
world operates.
    If we are to be predictable in our effects, I think an 
awfully large part of what we have got to develop is an ability 
to be--I said that wrong. I don't mean ``predictable'' in our 
effects, I mean ``accurate'' in our predictions of our effects. 
We have got to have a better sense of the impact of our 
behavior as we put our plans together to work in the remote 
regions of Afghanistan.
    I think this is a long-term commitment for us in order to 
build that depth of knowledge, and then allow it to have the 
impact in the places where that needs to occur. This will not 
be people deciding overnight where their allegiance is. It is 
going to have to be convincing them over a long period of time 
that they are better off placing their bet with the local 
regional government than with the illegitimate power players in 
the region.
    Mr. Smith. As so frequently happens, in asking you that 
question, I thought of one more.
    Shifting to Africa for the moment, I recently did a 
Congressional Delegation (CODEL) throughout many portions of 
Africa, but we went to Burkina Faso and we got a little bit of 
a brief on AQIM and sort of the surrounding area there--
Mauritania, Mali, Algeria--and we know there is activity of 
violent extremist groups there. Al Qaeda has set up a franchise 
most present in Algeria, but also in vast areas of Mali and 
Mauritania that are largely unpopulated. We know that there is 
some activity from Al Qaeda-sympathetic groups. We have some 
presence in different places, not a great deal.
    How concerned are you about that area, and is that an area 
where we need greater coverage, at least in terms of 
Intelligence, Surveillance, and Reconnaissance (ISR)? Because 
there are these huge, vast, open spaces out there. There is 
stuff going on but we don't have a lot of coverage of it, so we 
don't know exactly. Is that something we should be really 
concerned about or not?
    Admiral Olson. I think we should understand that as 
pressure is applied, as it was in Iraq and now in Afghanistan, 
and as the Pakistanis are applying pressure in Pakistan, that 
this will not necessarily end the activity. It will shift some 
of the sanctuaries to other places. And I think that in these 
large expanses of what are often called undergoverned regions, 
simply because the governments don't have the capacity to 
govern in some of the places where they have the will, then we 
have got to find ways of having a better understanding of what 
is happening there. ISR would be one of those possibilities.
    Mr. Smith. Certainly. Thank you very much. I don't think my 
colleagues have any more questions.
    I just want to conclude by saying our subcommittee has many 
roles, but one them we consider to be the most important is 
being as supportive as possible to what the Special Operations 
Command is doing. We could not ask for a better partner than we 
have in you as the commander there. I look forward to 
continuing that relationship.
    Thank you for coming out and testifying. We look forward to 
working with you.
    With that, we are adjourned.
    [Whereupon, at 1:58 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                              June 4, 2009
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              June 4, 2009

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  <all>

</pre></body></html>
